Date       : January 31, 2013

Reply to   : Office of Inspector General (OIG)

Subject    : Advisory Report No. 13-07, Status Update of the Electronic Records Archives
             Executive Office of the President System Upgrade

To         : David S. Ferriero, Archivist of the United States (N)


The purpose of this Advisory Report is to update you on the current effort to upgrade the
Electronic Records Archives (ERA) Executive Office of the President (EOP) System. We
initially brought our concerns about this effort to your attention on October 18, 2012 in
Management Letter No. 13-02, “Status of the Upgrade to the ERA EOP System” discussing
incomplete deliverables and a disconnect between NARA and the contractor on the scope of
work. These conditions exist because NARA did not clearly articulate all of the work required to
upgrade the EOP System in the Statement of Objectives (SOO). We also identified that this
project did not go through NARA’s Capital Planning and Investment Control (CPIC) process.
As a result, the value of the contract to upgrade the EOP System has increased to over $8.1
million, more than double the value of the original contract.

The ERA is a major information system that is intended to preserve and provide access to
massive volumes of all types and formats of electronic records, independent of their original
hardware or software, including Presidential records. The current EOP System was deployed in
December 2008 and is NARA’s private, internal archival management system to ingest, store,
and manage electronic Presidential records.

As part of the OIG’s ongoing effort to review the ERA Program, in 2012 we asked NARA
officials what actions, if any, were being taken to plan for the possible receipt of the current
administration’s electronic records should a change in administration take place in 2013. We
found that a firm-fixed-price contract was issued to ViON Corporation on August 16, 2012 for
around $3.6 million to provide planning, architectural design, engineering, integration, testing,
acceptance and security authorization upgrades to the EOP System. According to the SOO in the
contract, the EOP System requires upgrades to storage capacity, hardware, and software to be
ready in the event that the current administration is one term in duration, necessitating a sizeable
transfer of electronic records in January 2013 under the Presidential Records Act.




                                  National Archives and Records Administration
The Presidential Records Act gives the Archivist of the United States responsibility for the
custody, control, and preservation of Presidential records upon the conclusion of a President’s
term of office. The Act states the Archivist has an affirmative duty to make such records
available to the public as rapidly and completely as possible consistent with the provisions of the
Act. Should there have been a change in administration, NARA would immediately need to be
able to respond to time-sensitive and often high-visibility special access requests for these
records. Such special access requests come from former and incumbent Presidents, the courts,
and the Congress.

With the outcome of the election acknowledged, and knowing that the current administration will
be two terms we questioned NARA officials about the need to continue with the upgrade. A
senior NARA official told us the primary reason for establishing the EOP upgrade (i.e., EOP 44
instance) was as risk mitigation due to planned hardware/software obsolescence by the
manufacturer. In mid-FY12 NARA was notified by Hitachi that the existing EOP instance (i.e.,
EOP 43) would no longer be supported as of December 31, 2012. A decision was made by the
EOP team and Information Services management that the risk of maintaining presidential records
on unsupported hardware and software was too great and that the build of the EOP 44 instance
was the most appropriate mitigation. In parallel, NARA worked with Hitachi to ensure that
additional support (through June of 2013) will be provided for EOP 43 – to allow for the
completion of the EOP 44 upgrade which is scheduled for March 31, 2013.

Statement of Objectives (SOO)

 According to NARA officials, the ViON contract was intended as a turnkey solution for
upgrading the EOP System. In other words NARA planned on having a fully implemented,
usable system from the contractor. However, about a month into the contract a disconnect arose
between the contractor and NARA. The contractor inquired about the availability of 240
Ethernet ports 1 needed at the Allegany Ballistics Lab (ABL) 2 to install the upgraded EOP
System. A NARA official at ABL stated he did not have 240 ports available. This NARA
official added that the contractor believed NARA had the available ports and the contractor
would simply plug their product, the Hitachi Data Systems (HDS) Content Archive Platform
(HCAP) 3, into them. During a discussion between NARA and the contractor it was agreed the
SOO did not include all of the necessary requirements to fully implement the upgraded EOP
System. Based on this discussion, the contractor prepared a revised proposal based on a different
set of assumptions.

NARA’s Director, Strategic Systems Management Division stated the SOO did not fully explain
the effort required causing functional gaps and the work effort initially priced by the contractor
did not fully include the entire scope of the EOP upgrade due to the gaps. He also stated there
were several disconnects between the needs expressed in the SOO and the vendor’s

1
    An Ethernet port is an opening on computer network equipment that Ethernet cables plug into.
2
    The ABL is in Rocket Center, West Virginia and is the ERA System’s production data center.
3
    The HCAP is the main archival storage component for the EOP System.




                                                        Page 2

                                     National Archives and Records Administration

understanding of those needs. Specifically, regarding what constituted comprehensive products
and services. In some cases the gaps were due to evolving programmatic requirements from
external EOP business customers and in other cases NARA provided additional technical
requirements after determining the vendor had initially made incorrect assumptions about the
required services.

According to the contractor, the primary difference between the revised proposal and their prior
assumptions is this effort is not a Government-led, Contractor-supported effort, but rather a
Contractor-led, Government-supported project. This statement indicates that the contractor will
have a more active role in designing, managing, configuring, and installing the upgrade. As a
result, on December 7, 2012 a contract modification was issued for over $4.4 million to address
the required, but missing technical requirements. The modification states the original contract
did not include the total requirements for transport and ingest services at ERA/ABL, integration
of the production EOP System at ABL including full system backup and restore, cables,
switches, and did not include equipment for the Ingest Working Store or software including
Operating System or required labor to install and configure all software components.

The table below summarizes some of the changes in approach based on the revised proposal.

Table 1: ViON’s revised approach to meet the objectives and requirements of the SOO

   EOP                  Prior Approach                                Revised Approach
Components

  Network       • NARA-provided network                 •    ViON-provided and integrated
                  connectivity                               networking, to include additional Cisco
                                                             switches and cabling
 Transport      • Single Transport Array installed      •    Two transport arrays, local network
                  once at a single location                  switch, workstation, and
                • No on-site copying or pre­                 preprocessing/copying servers during
                  processing capabilities                    the period of performance.

   Ingest       • Utilize current NetApp storage        •    New storage and servers consistent
                  and servers                                with overall upgraded environment
  Testing       • ViON support of Government-           •    Government support of ViON-led and
                  led activity                               executed activity
                • Government does all CAT               •    Resources to perform unit, integration,
                  testing                                    and CAT testing (under NARA
                                                             oversight)
  Security      • Government provides resources         •    ViON provides resources for pre-
                  for pre-scanning as well as                scanning; Government performs final
                  scanning                                   scans once pre-scanning is complete
  Backup        • Solution will leverage existing       •    New backup infrastructure needed
                  backup infrastructure                      based on age (speed) and capacity
                                                             (utilization) of existing tape library.


                                                Page 3

                             National Archives and Records Administration

The SOO was subject to varying interpretations and assumptions because it did not clearly (1)
articulate all of the technical requirements to implement the EOP upgrade, and (2) delineate the
responsibilities of NARA and the vendor.

NARA’s Capital Planning and Investment Control (CPIC) Process

We also identified the EOP upgrade did not go through NARA’s CPIC process. The CPIC
process is a structured approach used to manage information technology (IT) investments,
legislatively mandated by the Clinger-Cohen Act of 1996, and used by all Federal Agencies.
CPIC relies on systematic selection, control, and continual evaluation of processes to ensure that
an investments’ objectives are met efficiently and effectively. NARA's CPIC process applies to
any project that invests new resources for IT 4 including system development or modernization
efforts, operations and maintenance efforts, and software or hardware upgrades.

A NARA official, tasked with oversight of the CPIC process, stated that the upgraded EOP
System did not go through the CPIC process. This individual stated that throughout the
development phases of ERA, these projects have not been managed through CPIC, but now that
ERA is in an operations and maintenance phase, NARA is investigating how to best utilize CPIC
for its planning activities. Additionally, NARA’s Program Manager for Systems Development
Lifecycle Coordination stated he understood there to be general discussion between CPIC and
ERA Program Management Office officials in early 2012, but did not recall any requests coming
from CPIC related to the EOP upgrade. He did not know why a request was not made by CPIC.

Because the upgraded EOP system did not go through the CPIC process, staff time spent on
procurement activities related to the upgraded EOP system were increased due to additional
meetings and related discussions on the disconnects with the SOO and in preparing
modifications to the original contract. In addition, the opportunity to identify potential issues
with the system was diminished. For example, the CPIC process includes a comprehensive
selection process where costs, business needs, strategic alignment, cost-benefit analysis, risk and
technical requirements are examined. However, because the upgraded EOP System did not go
through the CPIC process, these reviews did not occur.

Indeed, the NARA official tasked with oversight of the CPIC process stated that if the EOP upgrade
had gone through NARA's CPIC process he believed at least some of these issues and missing
requirements would have been flushed out during discussion and review. The OIG plans to initiate
an audit of NARA’s CPIC process during the current Fiscal Year.

A senior NARA official stated the design and architecture of the upgraded EOP System will
allow for future administrations to be included. He added however, given the velocity of change
with technology products (i.e., upgrades to hardware and software, and increased storage and
indexing requirements) it is possible that portions of the EOP System will need to be refreshed in
order to support future administrations. We suggest that for any future upgrades or development

4
  NARA 801 defines IT as any equipment or interconnected system or subsystem or equipment that is used in the
automatic acquisition, storage, manipulation, management, movement, control, display, switching, interchange,
transmission, or reception of data or information.




                                                     Page 4

                                  National Archives and Records Administration

activities related to the ERA System and any of its instances the SOO or the Statement ofWork
clearly articulate the technical requirements and the roles and responsibilities ofNARA and the
vendor. Although we understand that requirements may change, the more clearly they are
defined up front, the less likely they are ofbeing misinterpreted or subjected to incorrect
assumptions. We also agree with the NARA official overseeing the CPIC process that had the
EOP upgrade gone through the CPIC process some ofthese issues may have been alleviated.
Discussions during the CPIC process may have identified some ofthe disconnects and gaps prior
to the original contract being issued.

Our review effort consisted primarily ofreviewing applicable EOP System documentation such
as the ViON contract, the Statement of Objectives, NARA's CPIC directive and interviews with
responsible NARA officials. We will continue to monitor NARA's efforts to upgrade the EOP
System.

As with all 010 products, we will determine what information is publicly posted on our website
from this Advisory Report. Should you or management have any redaction suggestions based on
FOIA exemptions, please submit them to my counsel within one week from the date ofthis
letter. Should we receive no response within this time frame, we will interpret that as
confirmation NARA does not desire any redactions to the posted report. If you have any
questions concerning the information presented in this Advisory Report, please do not hesitate to
contact me at (301) 837-3000.



~~
Acting Inspector General


cc: 	Michael Wash (I) 

     Scott Stovall (IS) 





                                               PageS 

                             National Archives and Records Administration 

